WAIVE

Supreme Court, U.S.
FILED

JUN 0 4 2021
SUPREME COURT OF THE UNITED STAT
No.

OFFICEOF THE CLERK
OFFICE

20-1575

Americare Emergency Medical Service

NJ Office of Emergency Med. Services

(Petitioner)

V.

, (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

;New Jersey Office of Emergency Medical Services; James Sweeney; Scott Phelps; and Eric Hicken

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street., NE, Washington, D.C. 20543).
Signature:

6/3/21

Date:

(Type or print) Name !Michael R. Sarno
Mr.

0 Mrs.

Firm

Office of the New Jersey Attorney General

Address

25 Market Street, P.O. Box 112

City & State

Trenton, New Jersey

Phone

609-376-3200

0 Miss

Zip 08625-0112
Email IMichael.Sarno©law.njoag.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Lisa Cleveland, Esq.
Shay Deshpande, Esq.

State of New Jersey
PHILIP D. MURPHY
Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND PUBLIC SAFETY
DIVISION OF LAW
25 MARKET STREET
PO Box 112

SHEILA Y. OLIVER
Lt. Governor

GURBIR S. GREWAL
Attorney General
MICHELLE L. MILLER
Director

TRENTON, NJ 08625-0112

June 3, 2021

Via Overnight Mail
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543

Attn: Clerk, Mr. Scott S. Harris
Re:

Americare Emergency Medical Service, Inc. v. New Jersey Office

of Emergency Medical Services, et al.
Supreme Court Case No. 20-1575
Dear Mr. Harris:
This office represents Respondents, New Jersey Office of Emergency Medical
Services, James Sweeney, Scott Phelps and Eric Hicken, in the above-referenced matter.
Enclosed please find a copy of Respondents' waiver form indicating that they do not
intend to file a response to the petition for a writ of certiorari, unless one is requested
by the Court. Thank you for your time and attention to this matter.
Respectfully submitted,
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY
By:

/s/ MiChaeliZ. SournoMichael R. Sarno
Deputy Attorney General

cc: Lisa Cleveland, Esq. & Shay Deshpande, Esq.

RECEIVED
JUN - 7 2021
HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-3200 • Fm: (609) 777-4036

New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

OFFICE OF THE CLERK
SUPREME COURT U.S.

